APPENDICES
A. Order of the District Court, denying Petition for Writ of Habeas
Corpus.
B. Memorandum Decision of the Ninth Circuit Court of Appeals panel,
affirming denial of the Petition.
C. Order of the Ninth Circuit panel, denying rehearing and
rehearing en bane
D. Letter to Chief Judge Sidney Thomas, En Banc Review
Coordinator
E. Order finding that letter is improper and issues are without
merit.
F. Ninth Circuit Docket ("Dkt")

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA

MIGUEL WOOTEN,

Case No. I 6-cv-03 755 -VC

Petitioner,

AMENDED ORDER DENYING
PETITION FOR WRIT OF
HABEAS CORPUS

V.

WARREN L. MONTGOMERY,

Re: 0kt. Nos. I, 33

Respondent.

After the Court issued an order denying Wooten's petition for a writ of habeas corpus,
Wooten filed a motion for reconsideration, which was granted. See Dkt. No. 43 . Having
reconsidered the matter, the Court continues to believe that, although it's a close question, habeas
relief should be denied. Although Wooten's Fourth Amendment right to a prompt probable cause
hearing was clearly violated, there is reason to doubt whether a California court would have
applied the exclusionary rule to Wooten's later confession . That prevents Wooten from meeting
the "doubly deferential" standard applied to Strickland claims subject to AEDPA. Knowles v.

Mirzayance, 556 U.S. 111 , 123 (2009) . Nor do Wooten's remaining arguments justify habeas
relief. This ruling supersedes the ruling that was previously issued. See Dkt. No. 31 .

I
A Strickland theory premised on counsel's failure to file a motion to exclude evidence
requires : (I) that the motion would have been likely to succeed; and (2) that it be reasonable to
expect a more favorable trial outcome for the defendant as a result. See Kimme/man v. Morrison,
477 U.S. 365, 375, 382 (1986) ; Leavitt v. Arave, 646 F.3d 605, 613 (9th Cir. 20 I I); Wilson v.

Henry, 185 F.3d 986, 990 (9th Cir. 1999). The standard AEDPA gloss on this analysis requires

APPENDIX A

that the Strickland violation be so obvious from the state-court record that no reasonable jurist
could disagree as to the merit of the claim. See 28 U.S.C. § 2254(d); Harrington v. Richter, 562
U.S. 86, 101-03 (2011); Nasby v. McDaniel, 853 F.3d 1049, 1052-53 (9th Cir.2017); see also

Premo v. Moore, 562 U.S. 115, 123-24 (2011).
1

After Wooten's warrantless arrest under California Penal Code section 12034(a), he was
entitled to a probable cause hearing without unreasonable delay. County ofRiverside v.

McLaughlin, 500 U.S. 44, 55-57 (1991); People v. Jenkins, 122 Cal. App. 4th 1160, 1174-76
(2004). The government has a certain degree of flexibility in meeting that standard.

McLaughlin, 500 U.S. at 53-54. But when a probable cause hearing is delayed solely for the
purpose of seeking additional evidence about an unrelated crime, the government's delay is
unreasonable, and a Fourth Amendment violation has occurred. See Jenkins, 122 Cal. App. 4th
at 1171 , 1175-76; see also McLaughlin, 500 U.S. at 56. That's what happened here. Wooten
was arrested for one crime, approved for transfer for the express purpose of interrogation on
another, and not given a probable cause hearing before transfer. See Petition Ex. 0 (Dkt. No. 13). Wooten clearly suffered a Fourth Amendment violation. See Jenkins, 122 Cal. App. 4th at
1175-76.
If reasonable jurists would agree that a motion to suppress based on the McLaughlin
violation were likely to succeed, that would be the end of the matter. Succeeding on a motion to
suppress, and eliminating Wooten's in-custody confession, would have dramatically helped
Wooten's odds at trial. Without the prior confession, Wooten would never have felt compelled to
take the stand to reiterate his acts as part of an argument for self-defense. Cf Nguyen v.

McGrath, 323 F. Supp. 2d 1007, 1024 (N.D. Cal. 2004). Even under the "doubly deferential"
standard applied here, the habeas petition would be granted.
Although a motion to suppress very well might have been granted, this Court cannot say
that any reasonable jurist would conclude that the motion to suppress would have been likely to

1

Currently codified at California Penal Code section 26100.

2

APPENDIX A

succeed. See Premo, 562 U.S. at 124. A reasonable jurist might have concluded there was
probable cause to arrest Wooten for murder as of September 23, 2008, on the basis ofToussaint's
statements, or after Wooten and Toussaint were arrested together several months later. 2 The
existence of probable cause as to the murder would have distinguished this case from People v.

Jenkins, which held that suppression was appropriate under otherwise similar circumstances. See
122 Cal. App. 4th at] 174-78. And the existence of probable cause could have led a reasonable
jurist to conclude that the Fourth Amendment violation and Wooten's subsequent confession
were sufficiently disconnected that suppression was not warranted. For instance, the state court
might have determined, under a broad reading of New York v. Harris, 495 U.S. 14 (1990), that
Wooten's custody at the time he confessed was lawful, notwithstanding the Fourth Amendment
violation, because there was probable cause to arrest him for the murder, and that his confession
therefore was not the "fruit " of the violation. See id. at 18-20; see also Powell v. Nevada, 51 1
U.S. 79, 85 n* (1994) (declining to determine whether the approach taken in New York v. Harris
should apply in the context of a McLaughlin violation); id. at 89-92 (Thomas, J., dissenting);

United States v. Crawford, 372 F.3d 1048, 1055-56 (9th Cir. 2004) (en bane). Alternatively, the
state court could have concluded that, even if the confession could be considered the product of
the McLaughlin violation, the existence of probable cause as to the murder (perhaps coupled
with the Miranda warning Wooten received) attenuated the otherwise seemingly close
connection between the constitutional violation and the confession. See Anderson v. Calderon,
232 F.3d 1053, 1070-72 (9th Cir. 2000), overruled on other grounds, Bittaker v. Woodford, 33]
2

Petition Exs. H (0kt. No. 1-2), N (0kt. No. 1-3) at II. 2775-2904, 3022-3241 , 4036-4123, 415866, 4988-95 , 5019-23, 5050-5900. The police evidently weren't confident that Toussaint's
statements provided probable cause for an arrest at the time they were made in September 2008 perhaps because there was reason to doubt the reliability of his statements. Cf Lilly v. Virginia,
527 U.S. 116, 131 (1999); United States v. Patayan Soriano , 361 F.3d 494, 505-06 (9th Cir.
2004) ; People v. Campa, 36 Cal. 3d 870, 882 (1984). And the police certainly didn't arrest
Wooten on the basis of these statements, or seek a warrant to do so. Wooten sought to introduce
evidence that was never presented to the state court - evidence this Court therefore may not
consider - to shed additional light on the officers' apparent uncertainty. See 0kt. No. 28; Cullen
v. Pinholster, 563 U.S. 170, 181-82 (2011 ). But the officers' subjective beliefs do not determine
whether probable cause existed, and a reasonable jurist could conclude that probable cause
existed on the record here. See Brigham City v. Stuart, 547 U.S. 398, 404 (2006).

3

APPENDIX A

F.3d 715, 728 (9th Cir. 2003) (en bane); People v. Boyer, 38 Cal. 4th 412, 448 (2006); cf Utah v.

Striejf, 136 S. Ct. 2056, 2062 (2016). Had the state court regarded the record and the law this
way, there would be no grounds to conclude that Wooten's counsel was ineffective for failing to
file a motion to suppress rooted in the Fourth Amendment violation.
The possibilities outlined above are not necessarily the best interpretation of the facts or
the law. But in the present context, what matters isn't this Court's view of the merits of the
hypothetical suppression motion, or even of counsel's competence. Because reasonable jurists
could conclude the suppression motion was unlikely to succeed, they also could debate the
merits of Wooten's Strickland claim. Thus, even though Wooten's trial attorney would have had
"everything to gain and nothing to lose" by bringing a motion to suppress on Fourth Amendment
grounds, the AEDPA standard precludes habeas relief. Lowry v. Lewis, 21 F.3d 344, 346 (9th
Cir. 1994) (quoting United States v. Molina, 934 F.2d 1440, 1447 (9th Cir.1991)); see also

Kimme/man, 477 U.S. at 382.

II
Wooten's remaining arguments are unsuccessful. The record offers adequate support for
probable cause to arrest Wooten for the misdemeanor of knowingly allowing Toussaint to enter
his car with a loaded gun in violation of former California Penal Code section I 2034(a). A
motion to suppress based on unlawful arrest was therefore highly unlikely to succeed at the trial
court, and failure to make the motion is not a basis for a Strickland claim. To the extent
Wooten's Strickland theory is premised on officers' failure to release him within the timeframe
specified in California law, Wooten's theory is undermined by the California Constitution, which
ensures that statements will "be excluded only if so required by the federal Constitution."

Jenkins, 122 Cal. App. 4th at 1174 n.4 (citations omitted); see also Virginia v. Moore, 553 U.S.
164, 176 (2008).
There is no evident basis for believing that Wooten's counsel was denied access to
exculpatory information, nor is there any basis for believing that information counsel failed to
seek would have had an impact at trial. A reasonable jurist could therefore have concluded that

4

APPENDIX A

the Brady and Strickland arguments regarding Johnson and Toussaint are without merit.
Wooten has not made a colorable case that the prosecution knowingly relied on false
evidence in describing "the green-shirted person" in the gas station surveillance video as
Toussaint. The identity of the green-shirted person was contested at trial and remains contested
now, but that dispute does not amount to a due process violation. See United States v. Zuno-

Arce, 339 F.3d 886, 889-90 (9th Cir. 2003) .
For the reasons stated in the decision affirming Wooten's conviction on direct appeal, a
reasonable jurist could conclude that any error in jury instructions was harmless under either

Chapman or Brecht, and that there was adequate evidence of premeditation. People v. Wooten,
No. Al33860, 2014 WL 897896, at *6-9 (Cal. Ct. App. Mar. 7, 2014) .

III
A certificate of appealability is granted with respect to the issues discussed in Section I of
this decision, but not with respect to the issues discussed in Section II. See Slack v. McDaniel,
529 U.S . 473 , 483-84 (2000).

IT IS SO ORDERED.
Dated: August 15, 2018
VINCE CHHABRIA
United States District Judge

5

APPENDIX A

FILED

NOT FOR PUBLICATION

MAY 19 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT
MIGUEL ANTONIO WOOTEN,
Petitioner-Appellant,

No.

18-16657

D.C . No. 3:16-cv-03755-VC

V.

MEMORANDUM*
WARREN L. MONTGOMERY, Warden,
Respondent-Appellee.
Appeal from the United States District Court
for the Northern District of California
Vince Chhabria, District Judge, Presiding
Submitted May 15, 2020**
San Francisco, California
Before: R. NELSON and BRESS, Circuit Judges, and BLOCK,*** District Judge.
Miguel Wooten appeals the district court's denial of his 28 U.S.C. § 2254
petition as well as the district court's refusal to expand the record.

We have

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***
The Honorable Frederic Block, United States District Judge for the
Eastern District of New York, sitting by designation.

APPENDIX B

jurisdiction under 28 U.S.C. § 2253 and affirm.
We review de novo the district court's denial of Wooten's § 2254 petition.

Deck v. Jenkins, 814 F .3d 954, 977 (9th Cir. 2016). The petition is governed by the
Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA), which bars relief
unless the state court's decision "was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States." 28 U.S.C. § 2254(d)(l). Where, as here, the claim was raised
only in state habeas proceedings and then summarily denied, we must determine
"what arguments or theories . . . could have supported[] the state court's decision"
and then decide "whether it is possible fairminded jurists could disagree that those
arguments or theories are inconsistent with the holding in a prior decision of [the
Supreme] Court." Harrington v. Richter, 562 U.S. 86, 102 (2011).
1.

Wooten contends that he received constitutionally ineffective

assistance of counsel when his trial attorney failed to move to suppress Wooten's
confession to police that he shot William Johnson.

To establish ineffective

assistance of counsel, Wooten must demonstrate both deficient performance and
prejudice under the familiar standard of Strickland v. Washington, 466 U.S. 668, 687
(1984). Under AEDPA, "[a] state court must be granted a deference and latitude
that are not in operation when the case involves review under the Strickland standard
itself," because "[t]he pivotal question is whether the state court's application of the

2

APPENDIX B

Strickland standard was unreasonable. " Richter, 562 U.S. at 101.
a.

Wooten first argues that his trial counsel was ineffective for failing to

move to suppress his confession as fruit of his illegal arrest for violating former
California Penal Code § 12034 (2009). But the district court declined to issue a
certificate of appealability on this issue, and Wooten did not comply with the
requirements of Ninth Circuit Rule 22-1 ( e) in seeking to raise the uncertified issue
on appeal. The issue is therefore not properly before us. See 28 U.S.C. § 2253(c).
Regardless, Wooten' s argument lacks merit and so we decline to issue a
certificate of appealability. As relevant here, California law made it a misdemeanor
for a driver "knowingly to permit any other person to carry into or bring into the
vehicle a firearm" in certain public places. Cal. Penal Code §§ 12034(a) (2009)
(since re-codified at Cal. Penal Code § 26100). Officers observed Wooten allow
another individual, Jarvis Toussaint, into his car, and Wooten was entering the
driver' s seat when officers observed a firearm on Toussaint' s side of the vehicle.
These observations established probable cause that Wooten committed a
misdemeanor in the officers ' presence. A motion to suppress on the basis of an
unlawful arrest was thus unlikely to succeed, and a state court could reasonably
determine that Wooten ' s counsel did not render deficient performance by failing to
file a meritless motion. Lowry v. Lewis, 21 F .3d 344, 346 (9th Cir. 1994 ).
b.

Wooten next challenges his attorney ' s failure to move to suppress his

3

APPENDIX B

confession on the grounds that it was obtained after police unreasonably delayed
Wooten' s probable cause determination. See Cty. of Riverside v. McLaughlin , 500
U.S. 44, 56 (1992) (holding that the Fourth Amendment prohibits delaying a
probable cause hearing "for the purpose of gathering additional evidence to justify
the arrest").

Wooten argues that police obtained his confession by unlawfully

delaying his probable cause hearing on the weapon charge in order to question him
about a different crime (Johnson's murder), so his confession would have been
suppressed if his counsel had filed the appropriate motion.
Even assuming deficient performance, a state court could reasonably conclude
that Wooten was not prejudiced by his counsel ' s failure to file a motion under

McLaughlin, because suppression was unlikely. In Powell v. Nevada , 511 U.S. 79
(1994 ), the Supreme Court left open whether suppression is an appropriate remedy
for a McLaughlin violation. See id. at 85 n. *. And the Supreme Court has held that
under AEDPA, " [i]t is not an unreasonable application of clearly established Federal
law for a state court to decline to apply a specific legal rule that has not been squarely
established by [the Supreme] Court. " Richter, 562 U.S. at 101 (quotations omitted).
Wooten' s reliance on People v. Jenkins , 19 Cal. Rptr. 3d 386 (Ct. App. 2004),
does not demonstrate prejudice under AEDPA. Even assuming this state case is
relevant to our analysis under AEDPA, Jenkins suppressed inculpatory statements
after the defendant was arrested for one crime but questioned "about another crime

4

APPENDIX B

for which there was no probable cause to arrest him." Id. at 394.
Here, we agree with the district court that a reasonable jurist could conclude
there was probable cause to arrest Wooten for murder based on Toussaint informing
police that Wooten shot Johnson, where Toussaint's account was corroborated by
the fact that he and Wooten were later arrested for unlawfully carrying a firearm
while traveling together in the same car. Because a reasonable jurist could determine
there was probable cause to arrest Wooten for Johnson's murder, a reasonable jurist
could distinguish this case from Jenkins and conclude suppression was unwarranted.
A reasonable jurist could also find suppression unwarranted under Jenkins
because Jenkins held suppression is required only when the statement "was not
sufficiently an act of free will to purge the primary taint of the unlawful invasion."
19 Cal. Rptr. 3d at 400 (quotations omitted). Especially with the AEDPA overlay,
a reasonable jurist could conclude that Wooten's confession was sufficiently
voluntary under Jenkins. Among other things, Wooten was properly Mirandized and
chose to speak with police without a lawyer. Sgt. Jones also sought and obtained a
court order removing him from jail to an interview room before questioning him.
Taking these and other factors in the record together, suppression was not beyond
fair-minded disagreement. Richter, 562 U.S. at 102.
2.

Lastly, Wooten argues that the district court improperly denied his

request to expand the record to include a description of Johnson' s killer given by

5

APPENDIX B

Antione Knox, a witness to the shooting. We review the district court's refusal to
expand the record for abuse of discretion. Djerfv. Ryan, 931 F .3d 870, 884 (9th Cir.
2019).
Wooten's request is foreclosed by Cullen v. Pinholster, 563 U.S. 170 (2011),
which held that "review under § 2254(d)(l) is limited to the record that was before
the state court that adjudicated the claim on the merits." Id at 181. Wooten's
underlying claim is reviewed under§ 2254(d)(l) and the information Wooten seeks
to introduce was not before the state courts. Regardless, and particularly under
AEDPA, Wooten has not demonstrated that Knox's description would have defeated
probable cause and thereby supported his Strickland claim.
We have carefully reviewed Wooten's remaining arguments and conclude
they are without merit.
AFFIRMED.

6

APPENDIX B

Case: 18-16657, 06/24/2020, ID: 11731837, DktEntry: 66, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED
JUN 24 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MIGUEL ANTONIO WOOTEN,
Petitioner-Appellant,
V.

WARREN L. MONTGOMERY, Warden,

No.

18-16657

D.C. No. 3:16-cv-03755-VC
Northern District of California,
San Francisco
ORDER

Respondent-Appellee.
Before: R. NELSON and BRESS, Circuit Judges, and BLOCK,* District Judge.
The panel has unanimously voted to deny Appellant's petition for panel
rehearing. Judge R. Nelson and Judge Bress have voted to deny the petition for
rehearing en bane, and Judge Block so recommends . The full court has been advised
of the petition for rehearing en bane, and no judge has requested a vote on whether
to rehear the matter en bane. Fed. R. App. P. 35 .
The petition for panel rehearing and rehearing en bane (Docket Entry No. 65)
is DENIED.

*
The Honorable Frederic Block, United States District Judge for the
Eastern District of New York, sitting by designation.

A PPENDIX C

1120 College Avenue
Palo Alto, CA 94306
650-857-0129 email:
wrichardsuch@gmail.com

RICHARD SUCH
ATTORNEY AT LAW
June 25, 2020
Hon. Sidney R. Thomas
Chief Judge and En Banc Coordinator
U.S. Court of Appeals for the Ninth Circuit
c/o Molly Dwyer, Clerk of Court
Office of the Clerk
P.O. Box 193939
San Francisco, CA 94119-3939

Re: Miguel WOOTEN v. Warren MONTGOMERY, No. 18-16657
Dear Judge Thomas:
I am writing to ask you and your staff to look into what appear to be irregularities
in the decision in the above matter.
The Attorney General's Answering Brief (Dkt# 37) was electronically submitted
for review on December 12, 2019, and was filed on December 16, 2019. At the
same time, the Attorney General was ordered to file 6 copies of that brief in paper
format (Dkt#39).
Believing that the 21 days for filing the Appellant's Reply Brief began to run on
the 161\ I submitted a streamlined request for an extension of time on January 5,
2020, which was denied on January 6 on the ground that it should have been filed
by January 3. So on January 6, I filed a formal motion for an extension of time
until February 5, 2020 (Dkt# 44), which was granted on January 7.
Since the Reply Brief had not yet been filed, I was surprised to receive on January
17, a notice that "This case is being considered for an upcoming oral argument in
San Francisco .. . for May 2020 and the 2 subsequent sitting months in that
location." That notice stated "you will receive notice that your case has been
assigned to a calendar approximately 10 weeks before the scheduled oral argument
date." (Dkt# 46)
On January 29, 2020, I filed a second motion for an extension of time to file the
Reply Brief until March 6 (Dkt# 47), which was granted on February 4. Again, I
was surprised to receive on March 1, 2020, a notice of oral argument on May 15.
1

APPENDIX D

(Dkt# 49) That was "l Oweeks before the scheduled oral argument date" but before
the Reply Brief was due or filed,
On March 4, I submitted the 47-page, 12,592-word Reply Brief for review (Dkt#
52), along with a Motion to File Oversized Brief (Dkt#5 1) According to the court's
online Docket, this motion was granted by a "clerk order" on March 23 (Dkt# 53),
but, perhaps due to corona-virus related disruptions, I never received an email
notifying me of that order, nor did Deputy Attorney General Gregg Zywicke (he so
informed me in an email of April 21 ). I discovered the order only by reviewing the
online docket on April 20, when I received the order referred to in the next
paragraph. Nor did I receive any notice of the need to file paper copies of the
Reply Brief, but I mailed them for filing on April 21 , after I discovered the order of
March 23 . Then, on April 27, according to a "clerk order," the electronic Reply
Brief was filed but ''No paper copies are required at this time" (Dkt# 55), and I was
so notified by email on that date. But the paper copies I had already mailed were
received and filed on the same date and "sent to panel" (Dkt# 58) Thus, the Reply
Brief was filed and sent to the panel 18 days before the scheduled oral argument.
But on April 20, before the filing of the Reply Brief, the clerk had filed an order
that "The Court is of the unanimous opinion that the facts and legal arguments are
adequately presented in the briefs and record, and the decisional process would not
be significantly aided by oral argument" and that "This case shall be submitted on
the briefs and record, without oral argument, on May 15, 2020 .. .. " (Dkt# 54) Thus,
it appears that the Court made a judgment that the arguments were adequately
presented in the briefs before it received and without reading the Appellant's Reply
Brief.
On April 27, I filed a Motion to Transmit Exhibit (Dkt# 57) - People's trial Exhibit
20, a recording of crime-scene security-cameras videos, showing the homicide and
surrounding events - which I believed was relevant to the issue of whether, as
argued by the Attorney General, the police had probable cause to arrest the
appellant based on "the surveillance video" (Appellee's Brief, p. 3, 36, 45, 46, 49,
55) but which, appellant argued, gave no hint as to the identity of the perpetrator,
apart from the fact that he was African-American. (Appellant' s Reply Brief, pp.
21-22, 23, 44; see ER 1223-1226.) I offered to provide the Court with a copy of
the recording "upon request" (Dkt# 57, p. 3). On April 29, this motion was granted
(Dkt#60), but I was not asked to provide a copy.

2

APPENDIX D

The facts that the Court had already decided on April 20 that the facts were
adequately presented in the record, and that the Exhibit or a copy was not actually
transmitted or provided to the Court indicate that the Court's review of the record
and decision did not include viewing the video-recording.
The case was submitted on the briefs without oral argument on May 15 (Dkt# 63),
and a Memorandum Opinion was filed on May 19 (Dkt# 64). On May 31, I filed
petitions for panel and en bane rehearing, arguing that the panel misconceived a
Sixth Amendment ineffective-assistance claim to be a Fourth Amendment claim
that a motion to exclude evidence should have been granted. (The panel held that
United States Supreme Court law does not require exclusion of evidence obtained
as a result of violation of an arrestee's right to be presented to a magistrate without
unreasonable delay and prolongation of his detention for the purpose of obtaining
additional evidence of probable cause to justify the arrest, whereas appellant's
actual claim was that he was denied his right to effective assistance by the failure
of his attorney to make a motion to exclude evidence on that ground, where state
law does apply the exclusionary rule and the District Judge found that appellant's
Fourth Amendment right was clearly violated and said that, if the motion had been
made before him, he would have granted it.)
You and your staff would know much better than I, with my limited experience in
your Court, but it seems unusual to me that dispositive decisions would be made
before the briefing is complete and without a complete record, and that, in fact,
there are usually a number of months between completion of briefing and
scheduling of oral argument. I note that, according to The Appellate Lawyer
Representatives' Guide to Practice in the United States Court of Appeal for the
Ninth Circuit, pages 16-17:
E. WHAT HAPPENS AFTER MY CASE HAS BEEN ASSIGNED
TO A PANEL? After the cases have been assigned to the panels, the
briefs and excerpts of record in each case are distributed to each of the
judges scheduled to hear the case. The documents are usually received
in the judges' chambers twelve weeks prior to the scheduled time for
hearing, and it is the policy of the Court that each judge read all of the
briefs prior to oral argument.
1. ORAL ARGUMENT ...

a. How long does it take from the time of the notice of appeal until
oral argument? ... For non-priority ... appeals, cases are typically
scheduled for oral argument 12 months from the notice of appeal date.

3

APPENDIX D

If briefing isn't delayed, this is typically approximately 6-10 months
from completion of briefing. For a criminal appeal, cases are typically
scheduled for oral argument approximately 4-5 months after briefing
is complete.
I electronically filed appellant Wooten's combined Petition for Panel Rehearing
and Rehearing En Banc on May 31, 2020 - a Sunday - and, presumably, it was not
circulated until the next working day, Monday, June 1. General Order 5.4
provides:

5.4. Rehearing En Banc
a. Duties of Clerk
Upon the filing by a party of a petition for rehearing en bane, the
Clerk shall circulate a copy to each active judge and to those senior
judges who have requested copies.

b. Request for Notice of Panel Vote on Petition for Panel Rehearing
and Time Within Which Judges Must Act After Notice
1. Request for Notice

An off-panel judge may request notice of the panel's vote on a
petition for panel rehearing and petition for rehearing en bane
within 21 days of the circulation of the last-filed petition for
rehearing en bane.
There is no indication in the docket that the rehearing petition was circulated. On
June 24, 2020, at 9:44 a.m. - the morning of the 23 rd day after the filing and
possible circulation of the Petition for Rehearing - the three-judge panel issued an
order denying panel rehearing, which recited that Judges R. Nelson and Bress had
voted to deny rehearing en bane, that Judge Block had so recommended, and that
"The full court has been advised of the petition for rehearing en bane, and no judge
has requested a vote on whether to rehear the matter en bane." (Dkt# 66) Thus, for
the off-panel judges to have had a 21-day opportunity to request notice of the
panel's vote on the petition and to have requested a vote on whether to rehear the
matter en bane: (1) the petition would have had to have been circulated on June 1

4

APPENDIX D

or 2, (2) the last day for a judge to have requested notice of the vote and to have
requested a vote on en bane rehearing would have been June 22 or 23, and (3) the
panel judges - if they waited to vote until after the time for the off-panel judges to
request notice of the vote and to request a vote on en bane rehearing - had to have
voted on whether to grant or deny panel and en bane rehearing on the 23 rd or early
on the 24th • This squares with the following statements in the above Appellate
Lawyer Representatives' Guide, pages 123-124, and implies that the panel voted to
deny rehearing at nearly the earliest opportunity and without "deliberating" in the
sense described:

How long does it take the Court to vote on a petition for rehearing
en bane?
From the time a response to a petition for rehearing en bane is filed
to an order granting or denying the petition can take as little as as
three weeks and as long as several months. During this time judges of
the Court may be deliberating whether grant rehearing through a
series of internal memoranda and ultimately casting votes on
rehearing if a judge requests a formal poll. See generally General
Orders 5.4-5.5.
Considering the evidence that the panel decision was made without review of
Appellant's Reply Brief, the fact that it mistook a Sixth Amendment ineffective
assistance of counsel contention for a Fourth Amendment unreasonable seizure
contention, and the speedy manner in which the rehearing petition was disposed of,
I question whether that petition was given a fair review by all the judges.
I appreciate your looking into this matter.
Respectfully,

RICHARD SUCH
Attorney for Appellant
MIGUEL WOOTEN
cc: Judge R. Nelson
Judge Bress
Judge Block

5

APPENDIX D

Case 3:16-cv-03755-VC Document 65 Filed 07/01/20 Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

JUL 1 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MIGUEL ANTONIO WOOTEN,
Petitioner-Appellant,
V.

WARREN L. MONTGOMERY, Warden,

No.

18-16657

D.C. No. 3:16-cv-03755-VC
Northern District of California,
San Francisco
ORDER

Respondent-Appellee.
Before: R. NELSON and BRESS, Circuit Judges, and BLOCK,* District Judge.
The Court has reviewed the letter from counsel for Appellant dated June 25,
2020 (Docket Entry No. 67), which is addressed to Chief Judge Thomas. The letter
is procedurally improper, and the issues raised are without merit.

The

correspondence was forwarded to the Chief Judge, who declined to take further
action.

*
The Honorable Frederic Block, United States District Judge for the
Eastern District of New York, sitting by designation.

APPENDIX E

4/20/2020

18-16657 Docket

General Docket
United States Court of Appeals for the Ninth Circuit
Court of Appeals Docket#: 18-16657
Nature of Su it: 3530 Habeas Corpus
Miguel Wooten v. Warren Montgomery
Appeal From: U.S. District Court fo r Northern Californ ia, San Francisco
Fee Status: IFP

Docketed : 09/04/2018 /

Case Type Information :
1) prisoner
2) state
3) 2254 habeas corpus
Originating Court Information:
District: 0971-3: 3:16-cv-03755-VC
Trial Judge: Vince Chhabria , District Judge
Date Filed : 07/04/2016
Date Order/Judgment:
Date Order/Judgment EOD:
08/29/2018
08/29/2018

Date NOA Filed:
09/0 1/2018

Date Rec'd COA:
09/01/2018

IPdo,Cam,
None

C"neat Cases
None

MIGUEL ANTONI O WOOTEN (State Prisoner: AK4391)
Petitione r - Appellant,

William Richard Such
Direct: 415-495-3119
[COR LO NTC CJA Appointment]
1120 College Avenue
Palo Alto, CA 94306

V.

WARREN L. MONTGOMERY, Warden
Responden t - Appellee ,

hftl"'c·//o r-f

,..~a

Gregg E. Zywi cke , Esquire, Deputy Attorney General
Direct: 415-703-596 1
[C OR LO NTC Dep Sta te Aly Gen]
AGCA - Office of the California Attorney General
Suite 11000
455 Golden Gate Avenue
San Fra ncisco, CA 94102

1/7

11crr11 1rtc ru"\11 / n/ho~m/ccin,lat/ Tr-~ ncn n rtR A rim

APPENDIX F

9/17/2020

18-16657 Docket

n _1_

0910412018

29 pg, 560.38 KB

09/10/20 18

r·

'

2.

Filed clerk order (Deputy Clerk: CKP): Order to show cause docket fee due [11005636] (CKP) [Entered:
09/10/2018 10:43 AM]

.l..

Filed Appellant Miguel Antonio Wooten motion to appoint counsel. Deficiencies: No certificate of service .
[11011748] (NAC) [Entered: 09/14/2018 10:15 AM]

..1..

Filed Appellant Miguel Antonio Wooten motion for appointment of counsel and request for new briefing
schedule. Deficiencies: No certificate of service. Served on 09/10/2018. (11014598] (QDL) [Entered:
09/17/2018 04:28 PM]

_§_

Filed Appellant Miguel Antonio Wooten motion to proceed In Forma Pauperis. Deficiencies: None. Served
on 09/18/2018. (11025833] (JFF) [Entered : 09/26/2018 10:06 AM]

9 pg, 357.32 KB

09/13/2018

6 pg, 183.94 KB

09/14/20 18

..

'.._ __ .I

6 pg, 44.9 KB

09/25/2018

7 pg, 186.83 KB

10/15/2018

r

c--'

...§_

2 pg, 18.21 KB

11/19/2018

DOCKETED CAUSE AND ENTERED APPEARANCES OF COUNSEL AND PRO SE APPELLANT.
SEND MQ: No. The schedule is set as follows : Appellant Miguel Antonio Wooten opening brief due
10/31/2018. Appellee Warren L. Montgomery answering brief due 11/30/2018. Appellant's optional reply
brief is due 21 days after service of the answering brief. [10999359] (HC) [Entered: 09/04/2018 11 :15 AM]

•. ,

' .) i

1 pg, 8.23 KB

Received copy of District Court order filed on 10/03/2018 to grant in forma pauperis. [11047475] (JFF)
[Entered : 10/15/2018 03:42 PM]
Filed Appellant Miguel Antonio Wooten letter dated 11/13/2018 re: certificateof service. Paper filing
deficiency: None. [11095853] (JFF) [Entered: 11 /21/2018 09:32 AM]

JL

Filed order (Appellate Commissioner): A review of the district court docket reflects that the district court
granted appellant leave to proceed in forma pauperis on October 3, 2018 and that such permission has
not been revoked. Accordingly, appellant's in forma pauperis status continues in this court. See Fed. R.
App. P. 24(a)(3). Appellant's motion to proceed in forma pauperis on appeal (Docket Entry No. [fil) is
therefore unnecessary. Appellant's motion for appointment of counsel (Docket Entry Nos. Q] and [41) in
this appeal from the denial of a 28 U.S.C. 28 U.S.C. § 2254 petition for writ of habeas corpus is granted.
See 18 U.S.C. § 3006A(a)(2)(B); Weygandt v. Look, 718 F.2d 952, 954 (9th Cir. 1983). By this order, the
court expresses no opinion as to the merits of this appeal. Counsel will be appointed by separate order.
The Clerk shall electronically serve this order on the appointing authority for the Northern District of
California, who will locate appointed counsel. The appointing authority shall send notification of the name,
address, and telephone number of appointed counsel to the Clerk of this court at
counselappointments@ca9.uscourts.gov within 14 days of locating counsel. The opening brief and
excerpts of record are due January 29, 2019; the answering brief is due February 28, 2019; and the
optional reply brief is due within 21 days after service of the answering brief. (MOATT) [111 04553] (OC)
[Entered: 11/30/2018 10:40 AM]

01/04/2019

9

Received email notice of CJA counsel of record appointment. Attomey(s) William Richard Such for
party(s) Appellant Miguel Antonio Wooten, in case 18-16657. [11141052] (DL) [Entered: 01 /04/2019 06:52
AM]

01/11/2019

10

Criminal Justice Act electronic voucher created. (Counsel: Mr. William Richard Such for Miguel Antonio
Wooten) [11150856] (BJK) [Entered: 01/11/2019 04:42 PM]

01/29/2019

11

Filed (ECF) Streamlined request for extension of time to file Opening Brief by Appellant Miguel Antonio
Wooten. New requested due date is 03/01/2019. [11170538] [18-16657] (Such , William) [Entered:
01/29/2019 09:08 AM]

01/29/2019

, 12

Streamlined request [1 1] by Appellant Miguel Antonio Wooten to extend time to file the brief is
approved in part. Streamlined requests only allow for a 30 day extension of time to file the brief.
Amended briefing schedule: Appellant Miguel Antonio Wooten opening brief due 02/28/2019.
Appellee Warren L. Montgomery, Warden answering brief due 04/01 /2019. The optional reply brief
is due 21 days from the date of service of the answering brief. [11 170726] (JN) [Entered: 01/29/2019
09:59 AM]

..Q

Filed (ECF) Appellant Miguel Antonio Wooten Motion to extend time to file Opening brief until 04/15/2019.
Date of service: 02/20/2019. [11201148] [18-16657] (Such, William) [Entered: 02/20/2019 12:52 PM]

11/30/2018

2 pg , 267.89 KB

02/20/2019

--

4 pg, 125.08 KB

02/22/2019

~

..H.

Filed clerk order (Deputy Clerk: LBS): Appellant's unopposed motion (Docket Entry No. 13) for an
extension of time to file the opening brief is granted. The opening brief is due April 15, 2019. The
answering brief is due May 15, 2019 . The optional reply brief is du e within 21 days after service of the
answering brief. [11204866] (OC) [Entered: 02/22/2019 02:44 PM]

..li.

Filed (ECF) Appellant Miguel Antonio Wooten Motion to extend time to file Opening brief until 05/15/2019.
Date of service: 03/30/2019. [11247360] (18-16657] (Such, William) [Entered: 03/30/2019 10:55 AM]

1 pg , 194.8 KB

03/30/2019

4pg,41 .19 KB

04/02/2019

. -. _ill_
-'

1 pg, 185. 49 KB

Filed clerk order (Deputy Clerk: LKK):(ECF Filing) filed by Appellant Miguel Antonio Wooten; Granting
Motion l1fil (ECF Filing) motion to extend time to file brief filed by Appellant Miguel Antonio Wooten
Appellant Miguel Antonio Wooten opening brief due 05/15/2019. Appellee Warren L. Montgomery,
Warden answering brief due 06/14/2019. The optional reply brief is due 21 days after service of the
answering brief. [11250216] (LKK) [Entered: 04/02/2019 01:20 PM]

ttps://ecf.ca9.usco urts.gov/n/bea m/servlet/TransportRoom

3/8

APPENDIX F

9/17/2020

18-16657 Docket

r..J J.L

05/04/2019

5 pg, 43.79 KB

l-:J JJi.

05/06/2019

1 pg. 90.66 KB

06/14/2019

19

'._-, 2Q_

06/14/2019

230 1 pg , 263.6 MB

06/18/2019

r

.11_

4 pg, 40.41 KB

Filed (ECF) Appellant Miguel Antonio Wooten Motion to extend time to file Opening brief until 06/14/2019.
Date of service: 05/04/2019. [11286779] [18-16657] (Such, William) [Entered: 05/04/2019 05:05 PM)
Filed clerk order (Deputy Clerk: LBS ): Appellant's unopposed motion f.111 for an extension of time to file
the opening brief is granted. The opening brief is due June 14, 2019. The answering brief is due July 15,
2019. The optional reply brief is due within 21 days after service of the answering brief. [11287664] (LBS)
[Entered: 05/06/2019 01:20 PM}
STRICKEN PER ORDER ~ - Suemitteel (EGF) Oflenin!J Brief fer reYiew. Suemitleel ey Aflflellont Mi!Juel
Antonio Woeten. Dote ofseFYiee: 06/14/2919. [11332127] [18-16657]--[COURT UPDATE: Attached
corrected PDF of brief, removed motion (refiled in correct entry [.£1]). 07/02/2019 by LA] (Such, William)
[Entered: 06/14/2019 02:07 PM]
Submitted (ECF) excerpts of record. Submitted by Appellant Miguel Antonio Wooten. Date of service:
06/14/2019. [11332764} [18-16657]--[COURT UPDATE: Attached corrected PDFs of excerpts. 07/02/201 9
by LA] (Such, William) [Entered: 06/1 4/2019 06:30 PM]
Filed (ECF) Appellant Miguel Antonio Wooten Motion to file oversized brief. Date of service: 06/18/2019.
[11336493] [18-16657] (Such , William) [Entered: 06/18/2019 05:39 PM]

06/28/2019

:.:.., 22

Filed (ECF) Streamlined request for extension of time to file Answering Brief by Appellee Warren L.
Montgomery. New requested due date is 08/ 14/2019. [11348980] [18-16657] (Zywicke, Gregg) [Entered:
06128/201 9 03:02 PM]

07/01 /2019

r

23

Streamlined request [22] by Appellee Warren L. Montgomery to extend time to fi le the brief is not
approved because it is unnecessary. The briefing schedule is stayed. See 9th Cir. R. 32-2.
(11349873] (SB ) [Entered: 07/01/2019 09:16 AM]

07/30/2019

, 21_
1 pg, 116.17 KB

,-_. Q

08/13/2019

66 pg, 260. 77 KB

08/13/2019

,_ . .2§__
2 pg, 95.34 KB

08/20/2019

' 27

08/20/2019

-- 2§...
1 pg, 242.64 KB

08/22/2019

r

~

4 pg, 40.75 KB

08/30/2019

.J..Q._
2 pg, 36.67 KB

Filed order (Appellate Commissioner): Appellant's motion (Docket Entry No. [W) for leave to file an
oversized open ing brief consisting of 14,679 words is denied. The Clerk shall strike the opening brief
submitted at Docket Entry No. [19]. Within 14 days after the date of this order, appellan t shall file an
opening brief that does not exceed 14,000 words. See 9th Cir. R. 32-1(a). The answering brief is due
within 30 days after service of the opening brief. The optional reply brief is due within 21 days after
service of the answering brief. (Pro Mo) [11380930) (OC) [Entered: 07/30/2019 10:58 AM]
Submitted (ECF) Opening Brief for review. Submitted by Appellant Miguel Antonio Wooten. Date of
service: 08/13/2019. [11395925] [18-16657] (Such, William) [Entered: 08/13/2019 01:20 PM]
Filed clerk order: The opening brief l.f.fil submitted by Miguel Antonio Wooten is filed . Within 7 days of the
filing of this order, filer is ordered to file 7 copies of the brief in paper fo rmat, accompanied by certification
(attached to the end of each copy of the brief) that the brief is identical to the version submitted
electronically. Cover color: blue. The Court has reviewed the excerpts of record [.2.QJ submitted by Miguel
Antonio Wooten . Within 7 days of this order, filer is ordered to file 4 copies of the excerpts in paper format
securely bound on the left side, with white covers. The paper copies shall be submitted to the principal
office of the Cieri<. [11396169] (SML) [Entered: 08/1312019 02:48 PM]
Received 7 paper copies of Opening Brief[?§] filed by Miguel Antonio Wooten . [11404 180] (SD) [Entered:
08/20/2019 03:15 PM]
ENTRY UPDATED: Received Appellant Miguel Antonio Wooten excerpts of record [2Q] in 13 volumes.
Deficiencies: paper copies of volumes 2, 4-7, and 10 do not match the electronic versions, insufficient
copies of volumes 8 and 10. Notified counsel (See attached notice). [11404211]--[Edited 09/04/2019 by
SML to reflect the paper copies of the excerpts of record were released for pick up by counsel on
09/04/20 19] (SML) [Entered : 08/20/2019 03:39 PM]
Filed (ECF) Appellant Miguel Antonio Wooten Motion for miscellaneous relief [motion for return of paper
copies of six volumes of Excerpts of Record]. Date of service: 08/22/2019. [114 07644] [18-16657] (Such,
William) [Entered: 08/22/2019 04:55 PM]
Filed order (Appellate Commissioner): Appellant's motion for return of paper copies of appellants excerpts
of record is construed as a motion for substitution and conforming of appellant's excerpts of record to the
electronically filed documents. So construed, the motion (Docket Entry No. ~ ) is granted. The Clerk has
identified the following corrections to appellant's excerpts of record: 1) Volume 2: paper copies are
missing the first 3 pages, pages158A-158C; 2) Volume 4: paper copies are missing pages 504A-504G; 3)
Volume 5: paper copies are missing pages 748A-748G; 4) Volume 6: page numbers do not match the
electronic version: electronic page 896 is numbered 897 in the paper copies; Volume 6 consists of pages
896-1155 and the paper copies consist of pages 897- 1207; 5) Volume 7: the 2nd page of electronic
version is page 1184, the second page of the paper copies is page 1185; volume 7 consists of pages
1184-1316 and the paper copies of volume 7 consist of pages 1185-1365; 6) Volume 8: the court received
3 paper copies but requires 4; 7) Volume 10: Index of electronic version does not match the index in the
paper copies: page 1 of the electronic version is a placeholder that states "1734-1735 intentionally left
blank" that placeholder is not included in the paper copies, and only 3 of the required 4 copies were
received. Within 14 days after the date of this order, appellant shall make the corrections noted in this
order and submit the required copies of the corrected excerpts of record. Appellee's answering brief is

ttps://ecf.ca9.uscourts.gov/n/beam/servlel/TransportRoom

4/8

APPENDIX F

9/17/2020

18-16657 Docket
due within 30 days after service of appellant's corrected excerpts of record. Counsel Such may submit his
claim for the expense on his voucher under the Criminal Justice Act. (AppComm Direct Criminal)
[11416383] (HC) [Entered: 08/30/2019 09: 59 AM]
31

Received corrected deficiency of 4 paper copies of each volume of the excerpts of record that match the
electronic version from Appellant Miguel Antonio Wooten. [1 1429995] (SML) [Entered: 09/12/2019 03:21
PMJ

09/11/2019

32

Filed 4 paper copies of excerpts of record [2.Q] in 13 volume(s) filed by Appellant Miguel Antonio Wooten.
[11429998] (SML) [Entered : 09/12/2019 03:22 PM]

10/09/2019

U 33

10/10/2019

-

09/11/2019

'

11 /08/2019

34

- ~

5 pg , 35.28 KB

11 /12/2019

-_~J

_]_§_

1 pg, 89.86 KB

12/12/2019

J R_
74 pg , 317.78 KB

,. 3£L

12/12/2019

30 pg, 2.71 MB

Filed (ECF) Streamlined request for extension of time to file An swering Brief by Appellee Warren L.
Montgomery. New requested due date is 11/12/2019. [11460004] [18-16657] (Zywicke , Gregg) [Entered:
10/09/2019 04:29 PM]
ENTRY UPDATED. Streamlined request [33) by Appellee Warren L. Montgomery to extend time to
file the brief is approved. Amended briefing schedule: Appellee Warren L. Montgomery, Warden
answering brief due 11 /12/2019. The optional reply brief is due 21 days from the date of service of
the answering brief. (Updated due date of Appellee's answering brief. Jen) [11460166]-[Edited
10/10/2019 by JN] (JN) [Entered: 10/10/2019 07:08 AM]
Filed (ECF) Appellee Warren L. Montgomery Motion to extend time to file Answering brief until
12/12/2019. Date of service: 11/08/2019. [11493787] [18-16657] (Zywicke, Gregg) [Entered: 11/08/2019
10:42 AM]
Filed clerk order (Deputy Clerk: LBS):Appellee's late unopposed motion @ill for an extension of time to
file the answering brief is granted. The answering brief is due December 12, 2019. The optional reply brief .
is due within 21 days after service of the answering brief. [11495487] (LBS) [Entered: 11/12/2019 09:45
AM]
Submitted (ECF) Answering Brief for review. Submitted by Appellee Warren L. Montgomery. Date of
service: 12/12/2019. [11530903] [18-16657] (Zywicke, Gregg) [Entered: 12/12/2019 05:43 PM]
Submitted (ECF) supplemental excerpts of record. Submitted by Appellee Warren L. Montgomery. Date of
service : 12/12/2019. [11530905] [18-1 6657]-[COURT UPDATE: Attached corrected excerpts. 12/16/2019
by SML] (Zywicke, Gregg) [Entered: 12/ 12/2019 05:47 PM]

12/16/2019

,_::· ~
2 pg, 95.07 KB

Filed clerk order: The answering brief [n.] submitted by Warren L. Montgomery is filed. Within 7 days of
the fili ng of this order, filer is ordered to file 6 copies of the brief in paper format, accompanied by
certification (attached to the end of each copy of the brief) that the brief is identical to the version
submitted electronically. Cover color: red. The supplemental excerpts of record Qfil submitted by Warren
L. Montgomery are filed. Within 7 days of this order, filer is ordered to file 3 copies of the excerpts in
paper format securely bound on the left side, with white covers. The paper copies shall be submitted to
the principal office of the Clerk. [11533974] (SML) [Entered: 12/ 16/2019 03:12 PM]

12/17/201 9

41

Received 3 paper copies of supplemental excerpts of record [;IBJ in 1 volume(s) fi led by Appellee Warren
L. Montgomery. [11542744] (SML) [Entered: 12/23/2019 04:02 PM]

12/18/2019

40

Received 6 paper copies of Answering Brief QI] filed by Warren L. Montgomery. [11536416] (RG)
[Entered: 12/18/2019 07:36 AM]

01/05/2020

42

Filed (ECF) Streamlined request for extension of time to file Reply Brief by Appellant Miguel Antonio
Wooten. New requested due date is 02/05/2020. [11551050] [18-16657] (Such, William) [Entered:
01/05/2020 03:28 PM]

01/06/2020

43

Streamlined request (42) by Appellant Miguel Antonio Wooten to extend time to file the brief is not
approved because the request is late. The filer must file a motion per 9th Cir. R. 31-2.2(b).
[11551226] (JN) [Entered: 01 /06/2020 09:06 AM]

01/06/2020

'

~

.±1.

3 pg, 861 .44 KB

01/07/2020

; -12_
1 pg, 89.14 KB

01/17/2020

46

Filed (ECF) Appellant Miguel Antonio Wooten Motion to extend time to file a reply until 02/05/2020. Date
of service: 01/06/2020. [11552447] [18-16657] (Such, William) [Entered: 01/06/2020 04:17 PM]
Filed clerk order (Deputy Clerk: LBS): Appellant's late unopposed motion [111 for an extension of time to
file the reply brief is granted. The reply brief is due February 5, 2020. [11553118] (LBS) [Entered:
01/07/2020 10:16 AM]
This case is being considered for an upcoming oral argument calendar in San Francisco
Please review the San Francisco sitting dates for May 2020 and the 2 subsequent sitting months in that
location at htt12://www.ca9.uscourts .gov/court sessions. If you have an unavoidable conflict on any of the
dates, please file Form 32 within 3 business days of this notice using the CM/ECF filing type
Response to Case Being Considered for Oral Argument. Please follow the form's instructions
carefully.
When setting your argument date, the court will try to work around unavoidable conflicts; the court is not

ttps://ecf.ca9.uscourts.gov/n/beam/servlet/TransportRoom

5/8

APPENDIX F

9/17/2020

18-16657 Docket

able to accommodate mere scheduling preferences. You will receive notice that your case has been
assigned to a calendar approximately 10 weeks before the scheduled oral argument date.
If the parties wish to discuss settlement before an argument date is set, they should jointly request referral
to the mediation unit by filing a letter within 3 business days of this notice, using CM/ECF (Type of
Document: Correspondence to Court; Subject: request for mediation).[11565816]. [18-1 6657] (AW)
[Entered: 01/17/2020 09:21 AM]

AL

0112912020

3 pg , 2. 07 MB

02/04/2020

L

~

1 pg, 99.97 KB

03/01/2020

• ., 49

Filed (ECF) Appellant Miguel Antonio Wooten Unopposed Motion to extend time to file Reply brief until
03/06/2020. Date of service : 01/29/2020. [11578591] [18-16657] (Such, William) [Entered: 01/29/2020
03:06 PM]
Filed clerk order (Deputy Clerk: OC): Petitioner-Appellant Miguel Wooten's unopposed Motion to Extend
Time to File Reply Brief (0kt. [ill) is GRANTED. Petitioners-Appellant's reply brief shall be due March 6,
2020 . No further extensions will be granted. [11585161] (OC) [Entered: 02/04/2020 02:27 PM]
Notice of Oral Arg ument on Friday, May 15, 2020 - 09:00 A.M. - Courtroom 3 - San Francisco CA.
View the Oral Argument Calendar for your case here .
Be sure to review the GUIDELINES for important information about your hearing, including when to arrive
(30 minutes before the hearing time) and when and how to submit additional citations (filing electronically
as far in advance of the hearing as possible).
If you are the specific attorney or self-represented party who will be arguing, use the
ACKNOWLEDGMENT OF HEARING NOTICE filing type in CM/ECF no later than 21 days before Friday,
May 15, 2020. No form or other attachment is required. If you will not be arguing, do not file an
acknowledgment of hearing notice.(11613904). [Array, 18-16657] (AW) [Entered: 03/01/2020 06:16 AM]

03/02/2020

.fil.

3 pg, 200.57 KB

03/04/2020

- - _fil_

7 pg, 51.5 KB

03/04/2020

Submitted (ECF) Reply Brief for review. Submitted by Appellant Miguel Antonio Wooten. Date of service:
03/04/2020. (11618601)-(COURT ENTERED FILING to correct entry [§1].J (SML) [Entered: 03/04/2020
04:43 PM]

M...

Filed clerk order (Deputy Clerk: OC): Appellant's "Motion For Leave To Exceed Type-Volume Limitations
On Appellant's Reply Brief' (Docket Entry No. lli.1)) is granted. [11639216) (OC) [Entered : 03/23/2020
04:31 PM]

..M.

Filed clerk order (Deputy Clerk: QC): The Court is of the unanimous opinion that the facts and legal
arguments are adequately presented in the briefs and record, and the decisional process would not be
significantly aided by oral argument. This case shall be submitted on the briefs and record, without oral
argument, on May 15, 2020 in San Francisco, California. Fed. R. App. P. 34(a)(2). (11666259] (QC)
[Entered: 04/20/2020 03:45 PM)

1 pg, 99.43 KB

04/20/2020

_,

1 pg, 97.55 KB

04/27/2020

-~ ..&
1 pg, 91.11 KB

04/27/2020

...5§_
81 pg, 54.42 MB

04/27/2020

-,
.,

..fil..

5 pg, 45.36 KB

04/27/2020
04/28/2020

58

Jill.

5 pg, 46.06 KB

04/29/2020

~ .QQ._
1 pg , 100.25 KB

04/29/2020

_fil__
1 pg , 92.32 KB

05/04/2020

Filed (ECF) Appellant Miguel Antonio Wooten Motion to file oversized brief. Date of service: 03/04/2020.
(11618565] [18-16657]-[COURT UPDATE: Removed PDF of brief. Please see [.22]. 03/04/2020 by SML]
(Such, William) [Entered: 03/04/2020 04:21 PM]

x

54 pg, 220.5 KB

03/23/2020

Authorization for CJA attorney Mr. William Richard Such for Miguel Antonio Wooten to travel to San
Francisco to attend oral argument on 05/15/2020. See attached letter for details. [11614260) (KJC)
[Entered : 03/02/2020 09:41 AM]

'. 1 _fil_

Filed clerk order: The reply brief~ submitted by Miguel Antonio Wooten is filed . No paper copies are
required at this time. (11672829] (SML) [Entered: 04/27/2020 02:03 PM]
Submitted (ECF) further excerpts of record . Submitted by Appellant Miguel Antonio Wooten. Date of
service: 04/27/2020. (1 1673317] (18-1 6657] (Such , William) [Entered: 04/27/2020 04:30 PM]
Filed (ECF) Appellant Miguel Antonio Wooten Motion to transmit exhibit. Date of service: 04/27/2020.
(11673345] (18-16657) (Such, William) [Entered: 04/27/2020 04:37 PM]
Received 7 paper copies of Reply Brief(@ filed by Miguel Antonio Wooten. (sent to panel) (11673367]
(SD) [Entered: 04/27/2020 04 :44 PM]
Filed (ECF) Appellant Miguel Antonio Wooten Motion for miscellaneous relief [motion for leave to file
Further Excerpts of Record]. Date of service: 04/28/2020. [11674202) (18-16657] (Such, William)
[Entered: 04/28/2020 11: 12 AM}
Filed clerk order (Deputy Clerk: QC): Appellant's "Motion to Transmit Exhibit" (Docket Entry No. (fill) and
"Motion for Leave to File Further Excerpts of Record" (Docket Entry No. [§ill) are granted. [11675757]
(QC) [Entered: 04/29/2020 01 :48 PM]
Filed clerk order: The further excerpts of record llifil submitted by Miguel Antonio Wooten are filed. No
paper copies are required at this time. [11 676094] (SML) [Entered: 04/29/2020 04:27 PMJ
Filed (ECF) Appellant Miguel Antonio Wooten citation of supplemental authorities. Date of service:

1ttps://ecf.ca9.uscourts.gov/n/beam/servlet/TransportRoom

6/8

APPENDIX F

_,/

18-16657 Docket

9/1 7/2020
4 pg , 70.57 KB

05/15/2020
05/19/2020

LJ 63

~

·, M_

10 pg, 305.63 KB

05/31/2020

I

-

, .fil_

24 pg, 306.43 KB

06/24/2020

1

:

..2Q..

1 pg, 121.42 KB

06/27/2020

;--

.fil..

6 pg, 77.95 KB

07/01/2020

, ..fili.
1 pg , 96.34 KB

07/02/2020

..fil

05/04/2020. [11679768] [18-16657] (Such, William) [Entered: 05/04/2020 02:19 PM]
SUBMITTED ON THE BRIEFS TO RYAN D. NELSON, DANIEL A. BRESS and FREDERIC BLOCK.
[11692080] (ORW) [Entered: 05/15/2020 10:53 AM]
FILED MEMORANDUM DISPOSITION (RYAN D. NELSON, DANIEL A. BRESS and FREDERI C BLOCK)
AFFIRMED. FILED AND ENTERED JUDGMENT. [11694989] (MM) [Entered: 05/19/2020 09:1 0 AM]
Filed (EC F) Appellant Miguel Antonio Wooten petition for panel rehearing and petition for rehearing en
bane (from 05/19/2020 memorandum). Date of service: 05/31/2020. [11706056] [18-16657] (Such,
William) [Entered: 05/31/2020 11 :11 AM]
Filed order (RYAN D. NELSON, DANIEL A. BRESS and FREDERIC BLOCK) The panel has unanimously
voted to deny Appellant's petition for panel rehea ri ng. Judge R. Nelson and Judge Bress have voted to
deny the petition for rehearing en bane, and Judge Block so recommends. The full court has been
advised of the petition for rehearing en bane, and no judge has requested a vote on whether to rehear the
matter en bane. Fed. R. App. P. 35. The petition for panel rehearing and rehearing en bane (Docket Entry
No. ill§]) is DENIED. [11731837] (WL) [Entered: 06/24/2020 09:44 AM]
Filed (ECF) Appellant Miguel Antonio Wooten Correspondence: Possible irregularities in decision. Date of
service: 06/27/2020 (11735755] [18-16657] (Such, William) [Entered: 06/27/2020 01 :05 PM]
Filed order (RYAN D. NELSON, DANIEL A. BRESS and FREDERIC BLOCK): The Court has reviewed
the letter from counsel for Appellant dated June 25, 2020 (Docket Entry No. [fil]), which is addressed to
Chief Judge Thomas. The letter is procedurally improper, and the issues raised are without merit. The
correspondence was forwarded to the Chief Judge, who declined to take further action. [11740253] (AF)
[Entered: 07/01/2020 04:28 PM]
MANDATE ISSUED.(RDN, DAB and FB) [11740794] (JFF) [Entered: 07/02/2020 10:39 AM]

1 pg, 92.81 KB

'lttps://ecf.ca9.uscourts.gov/n/beam/servlet/TransportRoom

7/8

APPENDIX F

